VIRGINIA:
Jn the Supreme Count of Virginia held, at the Supreme Count {Building in the
City, of {Richmond on Juday the 29th day of Jamumy, 2021.
Henry Johnson Lucas, Jr.,
against

Appellant,

Record No. 200509
Circuit Com! Nos. CR06-135-01, and -02,
CR06-136-01, and CR06-174-01, -04, and -06

Commonwealth of Virginia,

Appellee.

From the Circuit Court of Culpeper County

Upon consideration of the record and the pleadings filed in this case, the Court finds that
assignments of error nos. 1-10 are insufficient as they do not address any finding or ruling of the
circuit court or any failure of the circuit court to rule on an issue in Henry Johnson Lucas, Jr. v.
Commonwealth of Virginia, Circuit Court Nos. CR06-135-01, and -02, CR06-136-01, and CR06174-01, -04, and -06, from which an appeal is sought. Accordingly, the petition for appeal is
dismissed as to those assignments of error. Rule 5:17(c)(l)(iii).
Upon consideration whereof, the Court refuses assignment of error no. I.
‘

Upon further consideration whereof, appellant’s October 22, 2020 “motion for leave of

court to amend a letter to the Commonwealth Attorney,” etc., and appellant’s November 25,
2020 motion for leave of court to amend three letters to the Commonwealth Attorney,” etc. , are
denied.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

3o6A-

VIRGINIA:
Jn the Supreme Qewtt of- VUiginia held at the Supreme Cowd {Building in the
Qity ci/ Richmond on Sfuvudag the 25th dag- of Mwtch, 2C21.

Henry Johnson Lucas, Jr.,
against

Appellant,

Record No. 200509
Circuit Court Nos. CR06-135-01, and -02,
CR06-136-01, and CR06-174-01, -04, and -06

Commonwealth of Virginia,

Appellee.
Upon a Petition for Rehearing

On consideration of the petition of the appellant to set aside the judgment rendered herein
on January 29, 2021 and grant a rehearing thereof, the prayer of the said petition is denied.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

loSA

VIRGINIA: IN THE CIRCUIT COURT OF CULPEPER COUNTY

HENRY JOHNSON LUCAS, JR.,
Petitioner
v.

CASE NO(S). CR06-135-01,02
CR06-136-01
CR06-174-01, -04, -06

COMMONWEALTH OF VIRGINIA,
Respondent
ORDER
It appears to the Court that on November 7,2019, the Petitioner, Herny Johnson Lucas, Jr., filed
^Motion to Vacate/Order Voidab initio, and onNovember 13,2019, the Commonwealth, by Nicholas
S. Kalagian, Assistant Attorney for the Commonwealth for the County of Culpeper, filed a Motion to
J

Dismiss Defendant's Motion to Vacate pursuant to Rule 1:1 of the Rules of the Supreme Court of
Virginia.
After reviewing the motions filed herein and further review of the record in these cases, the
Court finds that it no longer has jurisdiction and all appeals are exhausted; therefore, this Court takes no
•further action in the matter.
It is further ORDERED that any subsequent writing or pleading tendered in these cases shall be
returned to Henry Johnson Lucas, Jr.
The clerk shall provide all parties and counsel of record with a copy of this Order.

ENTER:
Susan L. Whitlock, Judge

J

DATE:

COPY MAILED ON 12/18/2019 TO:
HENRY JOHNSON LUCAS, JR.
COPY DEL'D ON 12/18/2019 TO:
COMMONWEALTH ATTORNEY FOR CULPEPER COUNTY

fiJnjrf
* EXHIBIT
!

'

AppettDLxB

.

Additional material
from this filing is
available in the
Clerk's Office.

